OIG Audit Report GR-30-99-009
Office of Community Oriented Policing Services Grants to the Leesburg, Virginia Police Department
Audit Report GR-30-99-009	
December 19, 1997
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services to the Town of Leesburg, Virginia Police Department (grantee).  The purpose of the grant is to enhance community policing.  The grantee was awarded a total of $900,00 to hire 12 new police officers.

We reviewed the grantee's compliance with seven essential grant conditions.  We found the grantee's budgeting practices, hiring practices, and community policing to be acceptable.  However, we found weaknesses in four other areas as identified below.  As a result, we question $73,478. 1

The grantee's reimbursement requests contained unallowable costs for officer salaries and fringe benefits.

	The grantee could not tell us how they were going to retain 11 officer positions funded under the UHP hiring supplements. 
		
	Several status reports were not filed or not timely filed.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.
				

Footnote
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar related.  See Appendix III for a breakout of our dollar related findings and a definition of questioned costs.